WAIVE

Supreme Court, U.S.
FILED

JUL 2 9 2021

SUPREME COURT OF THE UNITED STA
No.

FFICE OF THE CLERK

21-5206

S.J., Mother of A.C. and A.W.

Department of Children and Families

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Department of Children and Families

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:
Date:

7/29/21

(Type or print) Name Stephanie C. Zimmerman

0 Mr.

0 Ms.

0 Mrs.

0 Miss

Firm

Florida Department of Children and Families-Children's Legal Services

Address

1301 6th Avenue West, Suite 101

City & State

Bradenton, FL

Phone

850-443-6273

Zip 34205
Email stephanie.zimmerman@myflfamilies.con

RECEIVED
A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Ple ise indicateogic4
Ilfle
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or coMittellistabaired.
Robert J Slama, Robert J Slama PA, 6817 Southpoint Parkway, Suite 2504,

cc:

JqSfakgrgtV

